<html>
<title> - REALITY CHECK PART II: THE IMPACT OF EPA'S PROPOSED OZONE STANDARDS ON RURAL AMERICA</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                         REALITY CHECK PART II:
                      THE IMPACT OF EPA'S PROPOSED
                    OZONE STANDARDS ON RURAL AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             APRIL 29, 2015

                               ----------                              

                           Serial No. 114-17

                               ----------                              

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








                         REALITY CHECK PART II:
                     THE IMPACT OF EPA'S PROPOSED 
                    OZONE STANDARDS ON RURAL AMERICA

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 29, 2015

                               __________

                           Serial No. 114-17

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

       Available via the World Wide Web: http://science.house.gov
       
       
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-222 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       
       
       
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.          ZOE LOFGREN, California
DANA ROHRABACHER, California         DANIEL LIPINSKI, Illinois
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
MICHAEL T. McCAUL                    SUZANNE BONAMICI, Oregon
STEVEN M. PALAZZO, Mississippi       ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, TEXAS
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR           SUZANNE BONAMICI, Oregon
RANDY NEUGEBAUER, Texas              DONNA F. EDWARDS, Maryland
RANDY WEBER, Texas                   ALAN GRAYSON, Florida
JOHN MOOLENAAR, Michigan             AMI BERA, California
BRIAN BABIN, Texas                   DON S. BEYER, Jr., Virginia
BRUCE WESTERMAN, Arkansas            EDDIE BERNICE JOHNSON, Texas
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
















                            C O N T E N T S

                             April 29, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     9
    Written Statement............................................    10

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    11
    Written Statement............................................    13

                               Witnesses:

The Honorable Jim Reese, Secretary and Commissioner of 
  Agriculture, Oklahoma State Board of Agriculture
    Oral Statement...............................................    16
    Written Statement............................................    19

Ms. Cara Keslar, Monitoring Section Supervisor, Wyoming 
  Department of Environmental Quality, Air Quality Division
    Oral Statement...............................................    24
    Written Statement............................................    26

Dr. Paul J. Miller, Deputy Director and Chief Scientist, 
  Northeast States for Coordinated Air Use Management
    Oral Statement...............................................    37
    Written Statement............................................    39

Mr. Kevin Abernathy, Director of Regulatory Affairs, Milk 
  Producers Council; Vice Chair, Dairy
    Oral Statement...............................................    46
    Written Statement............................................    48

The Honorable Todd Hiett, Commissioner, Oklahoma Corporation 
  Commission
    Oral Statement...............................................    93
    Written Statement............................................    95

Discussion.......................................................   103

             Appendix I: Answers to Post-Hearing Questions

The Honorable Jim Reese, Secretary and Commissioner of 
  Agriculture, Oklahoma State Board of Agriculture...............   114

Ms. Cara Keslar, Monitoring Section Supervisor, Wyoming 
  Department of Environmental Quality, Air Quality Division......   116

Mr. Kevin Abernathy, Director of Regulatory Affairs, Milk 
  Producers Council; Vice Chair, Dairy...........................   120

The Honorable Todd Hiett, Commissioner, Oklahoma Corporation 
  Commission.....................................................   127

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   132

Documents submitted by Representative Frank Lucus, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   133

Documents submitted by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................   158

Documents submitted Representative Suzanne Bonamici, Ranking 
  Minority Member, Subcommittee on Enviorment, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..   495

 
                         REALITY CHECK PART II:
                   THE IMPACT OF EPA'S PROPOSED OZONE
                       STANDARDS ON RURAL AMERICA

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                  House of Representatives,
                        Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:37 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Jim 
Bridenstine [Chairman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairman Bridenstine. The Subcommittee on Environment will 
come to order. Without objection, the Chair is authorized to 
declare recess of the Subcommittee at any time.
    Welcome to today's hearing entitled ``Reality Check Part 
II: The Impact of EPA's Proposed Ozone Standards on Rural 
America.''
    Without objection, our colleague from California, Mr. 
Valadao, is authorized to participate in today's hearing.
    I recognize myself for five minutes for an opening 
statement.
    It is Congress' responsibility to provide oversight of the 
executive branch, and that means we must carefully review the 
impact and achievability of this proposed regulation. I am 
deeply concerned lowering the standards at this time will have 
a negative impact, particularly on rural America.
    Ozone levels and emissions of volatile organic compounds 
have significantly decreased over the past few decades. 
Furthermore, according to EPA's own data, their ``projections 
show the vast majority of U.S. counties would meet the proposed 
standards by 2025 just with the rules and programs now in place 
or under way.'' In other words, ozone levels will continue to 
decrease without doing anything else.
    However, it is concerning that the EPA is moving the 
goalposts and proposing to tighten the standards without first 
fully implementing the existing 2008 standard. The guidance for 
state implementation plans was only released earlier this year 
by the EPA. States have not even been given a chance to comply 
with the existing standard.
    Last month, the Full Committee held a hearing to examine 
this complicated and massive regulation that will impact almost 
every sector of the American economy and individual in the 
United States. According to Dr. Allen Lefohn, who testified in 
last month's hearing, it is his expert opinion that the EPA 
Administrator is relying solely on one 2009 study of 31 
participants in order to scientifically justify the costliest 
regulation in the history of this country.
    Just so everyone understands how massive this rule is, a 
February 2015 analysis by NERA Economic Consulting finds that 
GDP will be reduced by $1.7 trillion between 2017 and 2040, our 
economy will have 1.4 million fewer jobs, and households will 
lose an average of $830 per year.
    Another troubling issue is one of natural or background 
ozone. With these low proposed standards, background ozone may 
become the main contributor to exceedances of the standard all 
across the United States. States will be held responsible for 
factors outside their control.
    According to the Western States Air Resources Council, 
there are numerous national parks in the western United States 
with ozone monitors that regularly record concentrations which 
exceed the proposed range of 65 to 70 parts per billion, and 
some that even exceed the existing 75 parts-per-billion 
standard. As this figure shows--you can see up on the screen 
there--monitored ozone levels at rural sites in the West have 
stayed relatively flat. It is possible that all 11 of these 
areas would be considered in nonattainment under this new 
proposal. This would include Yellowstone National Park. There 
is no way this was Congress' intent when it passed the Clean 
Air Act over four decades ago.
    Two sectors of the economy will be heavily impacted by this 
rule are agriculture and transportation. These are incredibly 
vital to my home State of Oklahoma, and I look forward to 
discussing more in detail with our witnesses.
    Rural areas, like a lot of my state, will be especially hit 
hard by the Clean Air Act's transportation conformity 
requirements. A classification of nonattainment would mean that 
the Federal Government can withhold Federal highway funds for 
projects and plans if the individual projects do not meet 
specific emissions and air quality standards. They're talking 
about withholding Federal highway funds to my State of 
Oklahoma. Currently, we're in attainment, and while we're in 
attainment, we're still reducing our ozone. And now they're 
going to change the goalposts, move the goalposts, and then 
they're going to potentially withhold Federal highway funds.
    Those who bear a regulation's compliance costs may also 
suffer a decline in their health status, and these increased 
risks might be greater than the direct benefits of the 
regulation. Unfortunately, but not surprisingly, the EPA did 
not include premature deaths and increased mortality caused by 
the loss of disposable income when considering this proposed 
rule.
    Low-income Americans and senior citizens living on fixed 
incomes may be forced to choose between medications, food, or 
paying for heat and electricity. This is a continuation of this 
Administration's ``war on the poor,'' to go along with the 
Clean Power Plan and other existing and proposed EPA 
regulations.
    Supporters of the EPA's agenda will say opposition amounts 
to opposing clean air. This could not be further from the 
truth. My home state is in attainment, and has been for years, 
and even still, efforts are being made to further reduce ozone 
and other emissions. I am extremely proud of the work done by 
our state and local leaders. Even with their efforts, a new 
rule would plunge many areas into nonattainment.
    This is all the more reason why any proposed rule should 
not be decided in a hasty and hurried manner, especially since 
the impact of this rule will be widespread and affect every 
American.
    I want to thank each of the witnesses for coming this 
afternoon and I look forward to hearing from you.
    [The prepared statement of Chairman Bridenstine follows:]

           Prepared Statement of Subcommittee on Environment
                        Chairman Jim Bridenstine

    Good afternoon and welcome to this afternoon's hearing entitled: 
``Reality Check Part II: The Impact of EPA's Proposed Ozone Standards 
on Rural America''
    It is Congress' responsibility to provide oversight of the 
executive branch, and that means we must carefully review the impact 
and achievability of this proposed regulation. I am deeply concerned 
lowering the standards at this time will have a negative impact, 
particularly on rural America.
    Ozone levels and emissions of volatile organic compounds have 
significantly decreased over the past few decades. Furthermore, 
according to EPA's own data, their ``projections show the vast majority 
of U.S. counties would meet the proposed standards by 2025 just with 
the rules and programs now in place or under way.'' In other words, 
ozone levels will continue decreasing without doing anything else.
    However, it is concerning that the EPA is moving the goalposts and 
proposing to tighten the standards without first fully implementing the 
existing 2008 standard. The guidance for state implementation plans was 
only released earlier this year by the EPA. States have not even been 
given a chance to comply with the existing standard.
    Last month, the Full Committee held a hearing to examine this 
complicated and massive regulation that will impact almost every sector 
and individual in the United States. According to Dr. Allen Lefohn, who 
testified at last month's hearing, it is his expert opinion that the 
EPA Administrator is relying solely on one 2009 study of 31 
participants in order to scientifically justify the costliest 
regulation in the history of this country.
    Just so everyone understands how massive this rule is, a February 
2015 analysis by NERA Economic Consulting finds that GDP will be 
reduced by $1.7 trillion between 2017 and 2040, our economy will have 
1.4 million less jobs, and households will lose an average of $830 per 
year.
    Another troubling issue is one of natural or background ozone. With 
these low proposed standards, background ozone may become the main 
contributor to exceedances of the standard all across the United 
States. States will be held responsible for factors outside of their 
control.
    According to the Western States Air Resources Council, there are 
numerous national parks in the western United States with ozone 
monitors that regularly record concentrations which exceed the proposed 
range of 65-70 parts per billion, and some that even exceed the 
existing 75 ppb standard. As this figure shows (FIGURE 1), monitored 
ozone levels at rural sites in the west have stayed relatively flat. It 
is possible that all 11 of these areas would be considered in non-
attainment under this new proposal. This would include Yellowstone 
National Park! There is no way this was Congress' intent when it passed 
the Clean Air Act over four decades ago.
    Two sectors of the economy that will be heavily impacted by this 
rule are agriculture and transportation. These are incredibly vital to 
my home state of Oklahoma, and I look forward to discussing more in 
detail with our witnesses.
    Rural areas, like a lot of my state, will be especially hit hard by 
the Clean Air Act's transportation conformity requirements. A 
classification of non-attainment would mean that the federal government 
can withhold federal highway funds for projects and plans if the 
individual projects do not meet specific emissions and air quality 
standards.
    Those who bear a regulation's compliance costs may also suffer a 
decline in their health status, and these increased risks might be 
greater than the direct benefits of the regulation. Unfortunately, but 
not surprisingly, the EPA did not include premature deaths and 
increased mortality caused by the loss of disposable income when 
considering this proposed rule.
    Low-income Americans and senior citizens living on fixed incomes 
may be forced to choose between medications, food, or paying for heat 
and electricity. This is a continuation of this administration's ``war 
on the poor,'' to go along with the Clean Power Plan and other existing 
and proposed EPA regulations.
    Supporters of the EPA's agenda will say opposition amounts to 
opposing clean air. This could not be farther from the truth. My home 
state is in attainment, and has been for years, and even still, efforts 
are being made to further reduce ozone and other emissions. I am 
extremely proud of the work done by our state and local leaders. Even 
with their efforts, a new rule would plunge many areas into 
nonattainment. This is all the more reason why any proposed rule should 
not be decided in a hasty and hurried manner, especially since the 
impact of this rule will be widespread and affect every American.
    I want to thank each of the witnesses for coming this afternoon and 
I look forward to hearing from you.

    Chairman Bridenstine. I now recognize the Ranking Member, 
the gentlewoman from Oregon, my friend, Suzanne Bonamici, for 
an opening statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to all of our witnesses for being here today to discuss the 
EPA's proposal to lower the current ozone standard to somewhere 
in the range of 65 to 70 parts per billion.
    I do want to apologize in advance; I'm going to need to 
step out of some point for a meeting. I thought I had things 
perfectly timed and then they called votes and we're getting a 
late start, so my apologies. It does not indicate a lack of 
interest in this important issue.
    At a hearing last month on this very topic, one of the 
witnesses before the Committee, Dr. Mary Rice, stated that, 
``the scientific evidence available seven years ago . . . has 
been supplemented by an even greater understanding of the 
health effects of ozone exposure, including greater 
exacerbations of respiratory disease in infants and children, 
worse lung function in healthy adults and those with lung 
disease, . . . and increased mortality in adults.''
    In addition to the adverse public health effects of ozone, 
we'll also hear today about how high levels of ozone negatively 
affect vegetation and ecosystems. For example, more than 40 
years of research shows that long-term ozone exposure results 
in decreased forest productivity and diminished crop yields. 
Representing a state where agriculture is a critical economic 
driver, I take very seriously the negative effects of ozone on 
forest and crops.
    Specifically, an analysis by the EPA states that high 
levels of ozone may reduce the value of a whole tree such as 
Christmas trees. Now, Oregon is the number one producer of 
Christmas trees in the Nation. All in all, agricultural 
production accounts for over $5 billion towards Oregon's 
economy.
    Furthermore, the Clean Air Act, as passed by Congress, 
explicitly prohibits EPA from considering cost when setting at 
ozone standard. Congress purposely put the health and well-
being of Americans first. Now more than ever the American 
people need a strong EPA to protect their right to clean air 
and water.
    Some will argue today that implementing a lower ozone 
standard is not worth it, that it will kill jobs and the 
economy. Now, there is much more evidence showing that on 
balance, jobs are created and the economy expands following the 
passage of major environmental reforms. For example, in a 
report to Congress on the cost and benefit of Federal 
regulations, OMB estimated that major rules promulgated by the 
EPA between 2003 and 2013 in that decade had benefits between 
$165 billion and $850 billion compared to costs of $38 billion 
to $46 billion. Such a significant return on investment should 
prove the obvious, that when the environment is healthy, the 
economy is healthy.
    Let me be clear. I'm sensitive to the concerns we'll likely 
hear today. In fact, my home State of Oregon, we recognize the 
challenges associated with implementing a more stringent 
standard. Wildfires and the long-range shifting of ozone from 
Asia will need to be addressed if we're to achieve a lower 
standard.
    That said, comments submitted by my home State indicate 
Oregon's support for the EPA's proposal. A letter from David 
Collier, the Air Quality Manager at the Oregon Department of 
Environmental Quality, our DEQ, states that ``Oregon welcomes 
EPA's proposal to lower the ozone NAAQS based on advice 
provided by the Clean Air Act Science Advisory Committee in 
order to provide adequate protection to human health and 
welfare.''
    Although significant progress has been made in the past 40 
years, it is our job to build upon this legacy and ensure that 
we continue to improve the quality of our air. A strong economy 
and help the environment are not mutually exclusive. We can 
have both.
    The Clean Air Science Advisory Committee recommended in 
2008 lowering the ozone standard to between 60 to 70 parts per 
billion. They disagreed with the standards set previously of 75 
parts per billion, stating it was not sufficiently protective 
of public health. We should listen to our scientists and our 
public health professionals and set a standard that is based on 
the best available science. I'm confident in the ingenuity of 
Americans to address these challenges. We can and must do 
better for current and future generations.
    Thank you very much, Mr. Chairman. Again, thank you to our 
witnesses for being here this afternoon. I look forward to your 
testimony, and I yield back the balance of my time.
    [The prepared statement of Ms. Bonamici follows:]

            Prepared Statement of Subcommittee on Oversight
                Minority Ranking Member Suzanne Bonamici

    Thank you, Mr. Chairman, and thank you to our witnesses for being 
here today to discuss the EPA's proposal to lower the current ozone 
standard to somewhere in the range of 65 to 70 parts per billion.
    At a hearing last month on this very topic one of the witnesses 
before the Committee, Dr. Mary Rice, stated that ``the [scientific] 
evidence available seven years ago . . . has been supplemented by an 
even greater understanding of the health effects of ozone exposure, 
including greater exacerbation of respiratory disease in infants and 
children, worse lung function in healthy adults and those with lung 
disease . . . and increased mortality in adults.''
    In addition to the adverse public health effects of ozone, we will 
also hear today about how high levels of ozone negatively affect 
vegetation and ecosystems. For example, more than 40 years of research 
shows that long-term ozone exposure results in decreased forest 
productivity and diminished crop yields.
    Representing a state where agriculture is a critical economic 
driver, I take very seriously the negative effects of ozone on forests 
and crops. Specifically, an analysis by the EPA states that high levels 
of ozone may ``reduce the value of a whole tree such as Christmas 
trees.'' This is important to my constituents because Oregon is the 
number one producer of Christmas trees in the nation. All in all, 
agricultural production accounts for over $5 billion dollars toward 
Oregon's economy.
    Furthermore, the Clean Air Act, as passed by Congress, explicitly 
prohibits the EPA from considering cost when setting an ozone standard. 
Congress purposefully put the health and wellbeing of Americans first. 
Now, more than ever, the American people need a strong EPA to protect 
their right to clean air and water.
    Some will likely argue today that implementing a lower ozone 
standard is not worth it--that it will kill jobs and the economy. There 
is much more evidence showing that on balance, jobs are created and the 
economy expands following the passage of major environmental reforms. 
For example, in a report to Congress on the costs and benefits of 
federal regulations, OMB estimated that major rules promulgated by the 
EPA between 2003 and 2013 had benefits between $165 billion and $850 
billion, compared to costs of just $38 billion to $46 billion. Such a 
significant return on investment should prove the obvious: that when 
the environment is healthy, the economy is healthy.
    Let me be clear, I am sensitive to the concerns we will likely hear 
today. In fact, in my home state of Oregon we recognize the challenges 
associated with implementing a more stringent standard. Wildfires and 
the long-range shifting of ozone from Asia will need to be addressed if 
we are to achieve a lower standard. That said, comments submitted by my 
home state indicate Oregon's support for the EPA's proposal. 
Specifically, a letter from David Collier, the Air Quality Manager at 
the Oregon Department of Environmental Quality states that ``Oregon 
welcomes EPA's proposal to lower the ozone NAAQS [pronounced NACKS], 
based on advice provided by the Clean Air Act Science Advisory 
Committee, in order to provide the adequate protection to human health 
and welfare.''
    Although significant progress has been made in the past 40 years, 
it is our job to build upon this legacy and ensure that we continue to 
improve the quality of our air. A strong economy and a healthy 
environment are not mutually exclusive. We can have both.
    The Clean Air Scientific Advisory Committee recommended lowering 
the ozone standard to between 60 and 70 parts per billion in 2008. They 
disagreed with the standard set by the Bush Administration of 75 parts 
per billion, stating it was not ``sufficiently protective of public 
health.'' We should listen to our scientists and our public health 
professionals and set a standard that is based on the best available 
science. I am confident in the ingenuity of Americans to address these 
challenges. We can and must do better for current and future 
generations.
    Thank you, Mr. Chairman, and again thank you to our witnesses for 
being here this afternoon. I yield back the balance of my time.

    Chairman Bridenstine. I would like to thank the Ranking 
Member for her opening statements.
    We'll now introduce the witnesses. I will yield to the 
gentleman from Oklahoma, Mr. Lucas, to introduce our first 
witness, the Hon. Jim Reese, Secretary and Commissioner of 
Agriculture for the Oklahoma State Board of Agriculture.
    Mr. Lucas. Thank you, Mr. Chairman. I appreciate the 
opportunity to introduce my old colleague from my state 
legislative days.
    The Secretary acts as Governor Fallin's Chief Advisor on 
Policy Development and Implementation related to agriculture, 
food, and forestry issues. Reese grew up on a wheat and dairy 
farm--you never mentioned that in the past, Jim is still a 
wheat farmer near Nardin, Oklahoma, to this very day, a fellow 
who has a lifetime of experiences in dealing with the issues 
that we're talking about here.
    He served in the Oklahoma House of Representatives from 
1987 to 2001. After that, he was Executive Director of the USDA 
Farm Service Agency in Oklahoma, a bachelor's degree from 
Oklahoma State University in engineering technology, a fellow 
who lives it, does it, understands it, and I appreciate that, 
and it's a pleasure to have him here today, my old mentor from 
legislative days.
    And, Mr. Chairman, if you would indulge me for one further 
moment, without objection, I'd like to introduce the following 
ten documents into the record, including comments from the 
California Cotton Ginners and Growers Association, the 
California Farm Bureau Federation, the Georgia Farm Bureau, the 
Iowa Farm Bureau, the Kansas Farm Bureau, the Michigan Farm 
Bureau, Pennsylvania Farm Bureau, South Dakota Farm Bureau, and 
the Texas Farm Bureau. And I'd also like to submit comments 
from Mr. Howard Pearl, who's a small business and farm operator 
in New Hampshire who runs Pearl & Sons Farm, LLC.
    As a former Chairman of the House Agriculture Committee, I 
am very sensitive to what's going on in this area and would 
note if nothing else perhaps we should have finished 
implementing the 2008 standards before we moved on to something 
else.
    With that, Mr. Chairman, without objection, I'd like to 
submit these letters to the Committee.
    Chairman Bridenstine. Without objection, they will be 
included in the record.
    [The appears in Appendix II]
    Chairman Bridenstine. Does the gentleman yield back?
    Mr. Lucas. The gentleman yields back.
    Chairman Bridenstine. Roger that. The gentleman yields 
back.
    Our next witness is Ms. Cara Keslar, Monitoring Section 
Supervisor for the Wyoming Department of Environmental 
Quality's Air Quality Division. Ms. Keslar has 18 years of 
experience in the environmental field, including 13 years in 
the Air Quality Division. Ms. Keslar has a bachelor's degree in 
chemical engineering from Clarkson University and a master's 
degree in environmental and occupational health from the 
University of Illinois at Chicago.
    Our next witness is Dr. Paul Miller, Deputy Director and 
Chief Scientist for Northeast States for Coordinated Air Use 
Management, NESCAUM, a nonprofit association providing 
scientific, technical, analytical, and policy support to the 
air quality and climate programs of eight Northeast States.
    Before joining NESCAUM, Dr. Miller was a senior fellow at 
Princeton University's Center for Energy and Environmental 
Studies and a National Research Council Associate at the Joint 
Institute for Laboratory Astrophysics at the University of 
Colorado at Boulder. Dr. Miller has a Ph.D. in chemical physics 
from Yale University and a J.D. from Stanford University.
    I will now yield to the gentleman from California, Mr. 
Valadao, to introduce our next witness, Mr. Kevin Abernethy, 
the Director of Regulatory Affairs for the Milk Producers 
Council, and the Vice Chair of Dairy CARES.
    Mr. Valadao. Thank you, Chairman. I appreciate the 
opportunity to come and spent some time in your committee and 
introduce a personal friend.
    As many of you know, I am a dairy farmer from Hanford, 
California, and I've watched the industry struggle for many 
years trying to survive under these regulations. And the 
frustrating thing is when you see how the impact has really 
changed the dairy world. It's forced all the smallest of our 
producers, those who are just starting out, those who are 
trying to get into the business, it's basically prevented them 
from actually ever being successful because of the cost. It's 
typically the larger farmers who've been around a lot longer 
that have the ability and the financial ability to actually 
hire the engineers, hire the consultants, and hire all the 
crews they need just to survive.
    But Kevin Abernathy I've known for long time as my time at 
California Dairy Campaign. I was actually the Vice Chairman. 
And through that whole process of watching all these 
regulations start to be implemented, Kevin has always been 
someone that's spent a lot of time not just in an office 
pushing papers but actually out in the field working with the 
dairymen, looking for ways to make sure that we do our job for 
the environment but at the same time do it in a way that 
actually makes sense, that is actually doing what it's supposed 
to do on the environmental side but also have the ability 
that's feasible that a business owner can do it, and to make 
sure that the regulators understand what they're doing.
    He's on the USDA Agriculture Air Quality Task Force, San 
Joaquin Valley Air Pollution Control Districts, Dairy Producer 
Advisory Group. He's on the Central California Ozone Policy 
Committee, California Department of Food and Ag. He's got a few 
committees that he sits on as well, and obviously, like you 
mentioned earlier, Chairman, the Dairy Community Alliance for 
Responsible Environmental Stewardship.
    His background, animal husbandry over at Fresno State, so a 
good local Central California school, and he's been an expert 
that we've always leaned on to make sure that we have great 
representation in the dairy business so that our farmers have a 
fair shot at survival in producing food for our nation.
    So again, thank you, Kevin, for being here, and thank you, 
Chairman. And I yield back.
    Chairman Bridenstine. I'd like to thank the gentleman from 
California for his great introduction.
    Our final witness is Hon. Todd Hiett, Commissioner of the 
Oklahoma Corporation Commission. I know Todd personally. He's a 
friend of mine from the great State of Oklahoma, born in 
Kellyville, Oklahoma, graduate of Oklahoma State University, 
first elected to the Oklahoma House of Representatives at age 
27, served six terms, including his final term as the first 
Republican Speaker of the House in Oklahoma in eight decades.
    After eight years in the private sector experiencing the 
hardships put on business by excessive regulation, Todd was 
elected to be one of three Commissioners of the Oklahoma 
Corporation Commission, which is responsible for regulating 
fuel, oil and gas, public utilities, and transportation 
industries. He and his family still live on a ranch south of 
Kellyville near my hometown of Tulsa, Oklahoma.
    In order to allow time for discussion, please limit your 
testimony to five minutes each. Your entire written statement 
will be made a part of the record.
    I'd like to now recognize Secretary Reese for five minutes 
to present his testimony. Mr. Reese, you are recognized.
    Mr. Reese, could you turn on your mike, please? There's a 
button there.
    Mr. Reese. To talk? Okay. I'm sorry.

             TESTIMONY OF THE HONORABLE JIM REESE,

           SECRETARY AND COMMISSIONER OF AGRICULTURE,

              OKLAHOMA STATE BOARD OF AGRICULTURE

    Mr. Reese. Good afternoon, Mr. Chairman and Members of the 
Committee. I've presented my written testimony so I will try to 
summarize quickly.
    My visual presentation--my only visual presentation is a 
picture of my farm near Nardin, Oklahoma. My daughter took that 
on Easter Sunday of last year and it just happened to cover the 
beautiful sky in the background. There are skies all over 
Oklahoma and the rest of America that look exactly like this, 
but there are some things we cannot control.
    We cannot control the heat in the summer of 2011. Oklahoma 
had the highest average maximum temperature during the three 
summer months of any state since records began in 1895 at 100.4 
degrees. It was also our third driest in history with four 
inches of rain over those three months.
    We had numerous exceedances of 75 parts per billion that 
summer because of the heat and drought and circumstances that 
were beyond Oklahoma's control. Despite that beautiful sky on 
the screen, it may be very difficult for Oklahoma to meet the 
ozone standard of 65 to 70 parts per billion. In fact, that 
picture is in a county that EPA currently estimates to run 
above the 65 to 70 parts per billion average standard.
    The Clean Air Act directs the Administrator to set a 
standard based on criteria requisite to protect the public 
health. Biology teaches us the most important ingredients to 
support human life are air, water, and food. One of those three 
most important ingredients are to protect public health is 
food, not only public health but human life. Many may think 
food just appears in grocery stores but it does not.
    Providing the safest, most affordable food supply in the 
world requires a great deal of commerce that both cleans the 
air and also contaminates the air. Agriculture and forestry on 
one hand are among the greatest assets in improving air quality 
in that growing plants consume carbon out of the air. Growing 
agricultural crops consume carbon from the air. Those crops are 
fed to livestock, which then is turned into protein and 
delivers to your grocery stores and to your homes.
    But it does require fertilizer inputs, transportation 
inputs, diesel fuel inputs, food processing inputs, food 
shipment inputs, until finally it is on the plates of Americans 
supplying the third-most important necessary ingredient to 
sustain human life and public health.
    This proposed standard means greater cost to our producers, 
retrofitting engines, increased energy costs for dairy barns, 
poultry houses, possibly curtailing pesticide applications and 
fertilizer applications. One of the most critical issues in 
agriculture today is timing, planting, harvesting, applications 
of fertilizer and pesticides. These critical decisions cannot 
be made timely with EPA prescribing the formula. American 
agriculture has never been more efficient but it must continue 
to grow more efficient if it is going to continue to feed a 
growing world.
    Agricultural engines are more efficient and more air 
friendly than ever before. We are making great strides and 
great progress cooperatively. Much has been said about the 
prevalence of asthma and its sensitivity to ozone. In Oklahoma, 
we have an invasive nuisance that is also a major health risk, 
and that is eastern redcedar. Pollen from eastern redcedar 
causes itchy eyes, runny nose, congestion, migraines, and many 
more. The solution to the health problems associated with 
redcedar is effective land management, which does include 
prescribed burning, prescribed burning that would be prevented 
in Oklahoma counties if they are in nonattainment status.
    Now, I would suggest--I would not suggest that we rate one 
health concern over another, but many times a solution to one 
health concern aggravates another. When does government finally 
decide that it cannot know all of the answers? Our ozone levels 
are moving in the right direction and they have for the past 20 
years. Prescribed burning is a technique that prevents 
wildfires. It manages smoke contributions to the atmosphere. It 
saves lives and property. It improves grassland and forest 
health. All of these things are beneficial to the health of the 
environment, the economy, and human health. Being in 
nonattainment because of these EPA proposed rules can prohibit 
these beneficial aspects of prescribed fire.
    Americans working together these past 20 years have 
resulted in lower ozone levels. I'm grateful for the efforts of 
EPA and of Americans who have invested in protecting and 
improving our precious air and water resources. However, at 
some point we have to stop and consider competing interests in 
protecting human health, and protecting natural resources, and 
in protecting our food supply and our economy that are all 
equally important.
    Thank you, Mr. Chairman and committee members, for the 
opportunity to provide this testimony.
    [The prepared statement of Mr. Reese follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Bridenstine. Thank you, Mr. Reese.
    I now recognize Ms. Keslar for five minutes to present her 
testimony.

                 TESTIMONY OF MS. CARA KESLAR,

                 MONITORING SECTION SUPERVISOR,

          WYOMING DEPARTMENT OF ENVIRONMENTAL QUALITY,

                      AIR QUALITY DIVISION

    Ms. Keslar. Thank you, Mr. Chairman.
    Lower ozone NAAQS with design values influenced heavily by 
background ozone leaves Wyoming and Intermountain West States 
faced with new challenges in implementation.
    This testimony will focus on the implementation issues with 
the proposed ozone NAAQS that are of particular concern to 
rural Intermountain West States like Wyoming and specifically 
the effects of background on rural areas and the available 
policies for addressing nonattainment issues, in particular, 
exceptional events.
    At ground level, ozone is formed by complex reactions of 
pollutants in the atmosphere. Because of this, every 
geographical area has a unique mix of sources and meteorology 
that can govern its formation. Additionally, at high elevations 
like in Wyoming, ozone can be injected into our atmosphere from 
the ozone layer. This is called stratospheric ozone intrusion. 
This makes ozone exceedingly complex to understand and control. 
So far, EPA has focused on urban areas with highest ozone 
concentrations to protect public health and their tools and 
planning policies reflect that.
    As the ozone standard is lowered, rural and mountainous 
areas will also have difficulty attaining and implementing the 
ozone NAAQS but have fundamentally different issues to contend 
with such as more transported and natural pollution.
    In the NAAQS proposal, background ozone refers to 
components of international transport, transport into rural 
areas, and ozone from natural sources, including wildfire and 
stratospheric intrusion. This can account for a significant 
portion of measured ozone in the Intermountain West and is 
usually beyond a state's ability to control.
    In its proposal, EPA suggests that these background 
contributions can be addressed by existing regulatory relief 
mechanisms, including the exceptional event rule. While we 
appreciate the efforts to retain these mechanisms in their 
current state they require extensive resources to document 
uncontrollable pollution. It is imperative that EPA make 
improvements to these mechanisms and streamline the 
demonstration and approval process so states and EPA resources 
are properly allocated to reducing emissions rather than 
performing paperwork exercises.
    The DEQ has extensive experience in implementation of the 
exceptional event rule since its promulgation in 2007. We have 
produced several demonstrations showing that fire, high wind, 
and stratospheric intrusion have clearly caused exceedances of 
the NAAQS for PM 10, PM 2.5, and ozone. Specifically for ozone 
we've submitted five demonstrations to EPA Region 8 for 
stratospheric intrusion and we're the only agency and the 
Nation that has received a concurrence on intrusion event.
    Based on this experience, each stratospheric intrusion 
demonstration takes between four and eight months to produce. 
The effort to produce those demonstrations use internal staff 
expertise, as well as assistance from federal, state, and 
academic staff focused on researching and diagnosing these 
intrusion events.
    While we've not produced a demonstration to show ozone 
exceedances caused by wildfire, we're familiar with those 
demonstrations that EPA has concurred with. And to prepare 
comparable demonstration, it requires 15 months and contractor 
assistance of $150,000 per event.
    In order for states to implement the exceptional events 
rule in the practical fashion, EPA must update and streamline 
the process. A key to this is developing workable technical 
tools to help states analyze these exceptional events. The EPA 
and other governmental agencies already have several online 
systems to provide data and analyses. There should be a 
concerted effort by EPA to consolidate these tools into a 
workable system to provide the necessary technical products.
    Concurrently, EPA needs to follow through on their plans to 
provide clear requirements to demonstrate an exceptional event 
and produce very specific guidance for wildfire and 
stratospheric intrusion demonstrations for ozone. Furthermore, 
EPA needs to commit well-defined timelines for the region's 
review and decision on exceptional event.
    At this time, there are no timelines for EPA's review and 
decision. This leaves air agencies with uncertainty when making 
regulatory decisions that can be affected by the inclusion or 
exclusion of exceptional data.
    We recognize that EPA's responsibility to protect public 
health is the driving cause of lowering the ozone standard. 
However, overburdening state resources with administrative 
exercises will not help to achieve this objective. In addition 
to protecting public health, it is also the EPA's 
responsibility as the promulgators of this rule to provide 
states with the tools and guidance necessary to implement its 
standards and commit to doing so in a timely fashion. 
Therefore, EPA needs to devote the necessary resources to this 
issue to resolve concerns of rural and Intermountain West 
States.
    Thank you.
    [The prepared statement of Ms. Keslar follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
    
    Chairman Bridenstine. Thank you for your testimony.
    I now recognize Dr. Miller for five minutes to present his 
testimony.

                TESTIMONY OF DR. PAUL J. MILLER,

              DEPUTY DIRECTOR AND CHIEF SCIENTIST,

                NORTHEAST STATES FOR COORDINATED

                       AIR USE MANAGEMENT

    Dr. Miller. Good afternoon. My name is Paul Miller and I am 
Deputy Director and Chief Scientist of the Northeast States for 
Coordinated Air Use Management, or NESCAUM. I thank Mr. 
Chairman, Ms. Ranking Member, and the Members of the 
Subcommittee for providing NESCAUM with the opportunity to 
provide these comments today on U.S. EPA's proposed ozone 
standards.
    NESCAUM is a regional association of state air pollution 
control agencies representing Connecticut, Maine, 
Massachusetts, New Hampshire, New Jersey, New York, Rhode 
Island, and Vermont. NESCAUM provides policy and technical 
support for our state member agencies in furtherance of their 
air quality and climate programs. Our member state agencies 
have the primary responsibility for developing strategies that 
will attain and maintain current and potentially revised ozone 
standards in their states and in downwind areas affected by 
transport.
    My testimony today reflects the majority views of NESCAUM 
as a state membership organization. Individual NESCAUM member 
states do hold separate views regarding issues specific to 
those states' circumstances, which may differ from NESCAUM 
states' majority consensus.
    Over its 45-year history, the Clean Air Act has saved 
hundreds of thousands of lives and generated trillions of 
dollars in health and welfare benefits for our nation. 
Compliance with national ambient air quality standards have 
consistently proven less costly and more beneficial than either 
its critics or supporters predicted.
    Within the NESCAUM region, states have successfully met the 
challenge of reducing air pollution over the years while their 
economies, populations, and energy use have grown. While air 
quality has improved markedly under the existing Clean Air Act 
framework, the science clearly demonstrates that adverse 
impacts continue to occur and more protective ozone standards 
are needed.
    NESCAUM supports a health-based ozone standard within the 
range recommended by the Clean Air Act Scientific Advisory 
Committee, or CASAC, of .060 to 0.070 parts per million, eight-
hour average. Ground-level ozone is a respiratory irritant that 
adversely affects both people with respiratory disease and 
healthy children and adults. It can cause premature death.
    The science was sufficiently strong in 2007 to justify a 
more protective ozone health standard, but the standard set by 
EPA at that time fell short of what was needed. The science 
remained sufficiently strong in 2010 when EPA tried to 
reconsider its earlier vision but ultimately could not do so. 
It is now 2015 and the science has only become stronger. By 
extension, the current ozone NAAQS of 0.075 parts per million 
remains inadequate. Retaining this as a standard should not be 
an option.
    As today's hearing encompasses impacts on rural and 
agricultural sectors of America, I would like to focus the 
remainder of my comments on EPA's proposal for the revised 
secondary standard. The main focus of EPA's proposal is to 
provide increased protection against vegetation-related 
impacts.
    Ozone is the most important air pollutant affecting 
economically valuable agricultural crops and other vegetation 
in North America and elsewhere. Long-term exposure to ground-
level ozone above natural background concentrations results in 
diminished crop yields and in decreased forest productivity. In 
the United States, studies of estimated crop losses due to 
ozone damage are in the billions of dollars annually.
    In light of the existing science, NESCAUM supports a 
secondary ozone standard of the W126 index form, which is 
intended to better reflect biologically relevant ozone levels. 
EPA is proposing to revise the secondary ozone NAAQS to a level 
within the range of 13 to 17 parts per million hours average 
over three years, but setting the standard within the range of 
an eight-hour average, .065 to .070, which it asserts would 
provide equivalent protection.
    We believe that the W126 basis of EPA's proposed secondary 
NAAQS is at and above the CASAC recommended range. As a result, 
EPA's proposed level is not entirely consistent with the 
existing science.
    In achieving more protective ozone standards, mobile 
sources remain an important emissions sector. EPA needs to be 
forward-looking in addressing these as the full benefits of 
their emissions reductions take time to be realized due to 
fleet turnover rates and other factors. Strategies to reduce 
ozone forming nitrogen oxides or NOx from mobile sources such 
as lower emission standards for heavy-duty on-road diesel 
vehicles, updated federal aftermarket catalytic converter 
policies, diesel inspection and maintenance programs, and 
idling reduction measures are significant opportunities for 
lowering ozone pollution going forward.
    In sum, NESCAUM firmly believes that science must drive the 
ozone standards. EPA's most recent proposal generally better 
aligns with the long-standing science but may not adequately 
reflect levels needed to protect farms and forests.
    I thank you for your attention and I'm happy to answer any 
questions you may have.
    [The prepared statement of Dr. Miller follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Bridenstine. Thank you, Dr. Miller.
    I now recognize Mr. Abernathy for five minutes to present 
his testimony.

               TESTIMONY OF MR. KEVIN ABERNATHY,

                DIRECTOR OF REGULATORY AFFAIRS,

                    MILK PRODUCERS COUNCIL;

                    VICE CHAIR, DAIRY CARES

    Mr. Abernathy. Thank you, Mr. Chairman, distinguished 
Members of the Committee. I appreciate you holding this hearing 
today to discuss the EPA's proposed new standards on ozone.
    I've lived in the San Joaquin Valley of California all of 
my life, and as you might already know, there's three things 
that make unique--that are very unique to California. We are 
the Nation's agricultural powerhouse. We're in the middle of a 
terrible drought and we remain one of the most challenging air 
basins in the Nation for meeting air quality standards.
    While these things are true, there's much more to our 
story. Valley agriculture, business, and regulators have worked 
together to dramatically improve air quality while producing 
more crops in hopes of a stronger economy, and we can continue 
this if we act wisely, but we have to face the harsh reality. 
That reality is as the air gets cleaner, achieving further 
incremental improvements becomes technologically and 
economically challenging. As we move toward near background 
levels, it becomes almost impossible. A change in strategy is 
certainly needed.
    As the current act monitors air quality agencies and 
bureaucracy and forcing them to implement multiple redundant 
standards for criteria pollutants, this wastes time and money. 
They're held accountable for these standards without regard to 
whether they're achievable. They're asked to literally do the 
impossible, control pollution and in some cases from sources 
they don't regulate, achieve reductions from technologies that 
don't exist today.
    California dairy families produce nearly a fifth of the 
country's milk generating $63 billion in the economy, over 
443,000 jobs, and agricultural production and processing 
accounts for 37.8 percent of the regional employment. It's to 
be said that for every dollar that comes onto the dairy farm, 
$8 are stimulated in the local community.
    With the Valley's unique topography, temperature 
inversions, we face very tough challenges. With 10 times less 
pollution per square mile than Los Angeles with our stagnant 
air conditions, we struggle to meet ever-tightening air quality 
standards with pollution that's not only imported from the San 
Francisco Bay area but also from countries as far away as Asia. 
Slide one, please.
    [Slide.]
    We are very, very proud of this slide. It shows that we 
have had a 97 percent reduction in the 1-hour ozone standard 
with over 600 rules that have been implemented in the San 
Joaquin Valley, such as Rule 4574 stationary engines, Rule 4702 
on stationary engines, 4570 for VOCs from CAFOs. 4570 is an 
interesting note from the standpoint that it's the San Joaquin 
Valley's most expensive individual rule ever passed on Central 
Valley dairy families. All told, businesses have spent more 
than 40 billion in complying with these rules.
    Slide #2.
    [Slide.]
    We've been committed. We made the comment that we would--we 
wanted rules that were based on sound science and guided by 
sound science that we would live with the results. With that, 
we have spent more than $50 million studying air quality in the 
Central Valley and in California. Now that the low-hanging 
fruit has been picked, our air quality in the San Joaquin 
Valley has the daunting task--we've reduced emissions by 80 
percent but we have to find another 90 percent to meet the 
current standard, let alone a reduced standard.
    Slide #3.
    [Slide.]
    What's interesting about the past slide that I missed on 
was the fact that we're potentially looking at shutting down 
all combustible sources of emissions in the Central Valley to 
meet the current standard. With that, Slide #3. Thank you.
    [Slide.]
    As you see here, with the potential lowering of the 
standard, we're potentially looking at having a lot of the 
country coming in to noncompliance.
    Let me finish with, in summary, California dairy families 
are under the Nation's most strict environmental regulations 
from water quality to energy cost from the climate change 
regulations--and this is all happening during the middle of the 
historic drought in the Central Valley as farmers have been cut 
back between 65 and 100 percent of their water allocations.
    We must ask the question: How long will California remain 
the number one agricultural state with nearly 500 dairy farms, 
as Representative Valadao noted, have closed in the past five 
years. As prominent states around us that have been luring our 
farmers out of California, they've actually made public 
comments thanking us for sending us ``your best farmers.'' It 
may draw a chuckle but I would say beware; you possibly could 
be next. California is just the canary in the coalmine. We 
strongly urge leaders like yourselves to take careful 
considerations of the testimony provided today.
    Again, thank you, Mr. Chairman and Members of the 
Subcommittee, for your attention and opportunity to provide 
testimony.
    [The prepared statement of Mr. Abernathy follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
  
    
    Chairman Bridenstine. Thank you, Mr. Abernathy.
    I now recognize Commissioner Hiett for five minutes to 
present his testimony.

               TESTIMONY OF THE HON. TODD HIETT,

                         COMMISSIONER,

                OKLAHOMA CORPORATION COMMISSION

    Mr. Hiett. Thank you, Mr. Chairman and Members of the 
Committee. I certainly appreciate the opportunity to be here. 
It's quite an honor and certainly important to our State of 
Oklahoma to weigh in on this very important issue.
    This is a complicated issue, as you well know, subject to 
requiring technical, legal, and environmental expertise. 
However, without minimizing the importance of this issue, I 
would like for us to keep in mind just a few basic concepts. 
Number one, the proposed changes to NAAQS for ozone are 
unwarranted at this time. On March the 6th, 2015, the EPA 
finalized state implementation plan requirements for the 
current standard. That was just a little over a month ago. And 
these standards, we should note, are the most stringent ozone 
standards to be imposed yet. It leads me to ask why, and why 
now before the EPA has even had the opportunity to measure the 
achievements under the current standards that are beginning to 
go into place.
    The second thing that I would like for us to keep in mind, 
retaining the current NAAQS for ozone would result in 
substantial compliance with the more stringent proposed 
standards. In other words, the rules that are already in place 
will actually work toward substantial compliance for the 
proposed standards. The EPA's projections show that the vast 
majority of U.S. counties with monitors would meet the proposed 
standards by 2025 with the rules that are already in place.
    Third, the proposed rule is arguably the most expensive air 
regulation in U.S. history with a disproportionate negative 
impact on rural America. The EPA's own numbers say that the 
cost will be in excess of $15 billion. NERA, as was noted 
earlier, performed a study that indicated that that estimate 
may be way understated. Furthermore, they said that this would 
cost the United States gross domestic product $140 billion and 
cost us 1.4 million jobs. This is a lot of expense for a 
questionable return as to the ozone levels.
    I'd like to narrow the focus now to the rural part of my 
testimony. As I stated earlier, the rural areas will be 
disproportionately affected by the proposed rules. The 
Department of Environmental Quality, the Oklahoma Department of 
Environmental Quality, explained that the areas primarily at 
risk for a violation would most likely be the rural areas that 
possess no ability to establish attainment through control of 
ozone precursors.
    Next, I'd like to address--and it's been addressed a couple 
of times already--but I'd like to also address controlled 
agriculture burns. These prescribed burns are so important in 
so many different ways from environmental reasons to 
agricultural reasons to protecting--to public safety reasons. 
If we are limited, which is very possible under these proposed 
rules, if we are limited and possibly prohibited from 
prescribed burns in Oklahoma, I have no doubt we would 
experience more wildfires.
    In 2012--in the fall of 2012, my home area experienced a 
wildfire that burned 60,000 acres and completely destroyed 209 
homes. This was an area that unfortunately prescribed burning 
had not been practiced by the owners in that general area, and 
as a result, you see what happened. There are consequences to 
these actions.
    Next, I'd like to address the emissions controls on trucks 
and heavy machinery. It's the farmer that will pick up the cost 
on that, and as you well know, the farmer doesn't get to pick 
his prices. He is a price-taker.
    Another challenge facing rural Oklahoma is healthcare, a 
huge challenge that we address every day. Nearly 1/2 of the 
rural hospitals in the State of Oklahoma are experiencing 
negative trend lines according to a study recently done by the 
Oklahoma Hospital Association. Seven are currently in 
bankruptcy.
    You wonder why does that have anything to do with energy 
costs? Energy costs are important to rural hospitals, to all 
hospitals. As a matter of fact, we have over a billion-dollar 
rate case before us at the Commission currently. The hospitals 
in Oklahoma have joined together and have become an intervenor 
in that case. So they obviously feel that it is important to 
them.
    In conclusion, I'd just say the far-reaching effects of the 
proposed rule--proposed rules are immeasurable. The economy 
cannot face the unjustified expense associated with proposed 
rule and we owe to Americans to offer a balanced plan with 
achievable goals, as has been proposed previously in current 
standards.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hiett follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Chairman Bridenstine. Thank you, Mr. Hiett, and thank you 
for your testimony, especially on the health effects. I think 
there's been a lot of evidence that when you control for 
poverty, asthma in rural areas and asthma in urban areas where 
there's higher, you know, outdoor ozone, when you control for 
poverty, there's a significant difference between asthma is 
really--it's not there when you control for those things. So 
the health effects work on two different sides. Poverty is--it 
does create, you know, bad health effects as well.
    I wanted to ask--first of all, thank the witnesses for 
their testimony. Members are reminded that committee rules 
limit questioning to five minutes, and the Chair recognizes 
himself for five minutes of questions.
    Starting with Secretary Reese, you are the Secretary of 
Agriculture for the great State of Oklahoma, and I wanted to--
and you're a lifelong farmer. I wanted to ask you how this 
regulation would affect farmers not only in Oklahoma but all 
across the country?
    Mr. Reese. As you know, Oklahoma is a full attainment 
State, and so currently we don't--aren't facing these 
regulations, but you would just have to look at other states as 
they've implemented these regulations and retrofitting tractors 
and machinery and going from the Tier 1, Tier 2, Tier 3, Tier 4 
engines would be extremely, extremely expensive for the farm 
industry. Less than three percent of Oklahoma's tractors--this 
is just my estimate and I would assume it would be nationwide--
would comply with the Tier 4 engines, combines, tractors, hay 
machines, all those things put together.
    Chairman Bridenstine. Real quick, is it your assessment 
that most farmers can afford those costs?
    Mr. Reese. It would be my assessment that they cannot, and 
my assessment would be that the average farmer is 429 acres in 
Oklahoma and it's smaller across the country. And 429 acres 
does not necessarily support a $130,000 tractor or a $150,000 
tractor. I mean it just takes times to make those investments 
for those--that machinery.
    Energy costs--we're a high-energy consumer, dairy barns, 
poultry, swine, food costs. If we are required to upgrade all 
of our engines, all of our machinery, it will affect food 
costs, and thereby affecting poorer people who can't afford it. 
We have the safest and most affordable food supply the world, 
and as we increase that, it would be more difficult for people 
to get nutritious food.
    And then finally just growing crops, as I said, is a timely 
issue. It has to be--if EPA is trying to govern when we apply, 
when we plant, when we harvest, it would be--it would increase 
food costs.
    Chairman Bridenstine. Can you share with this panel because 
a lot of us are not farmers, when you say it's a timely issue, 
can you share with us what that means?
    Mr. Reese. Well, exactly right now it's spring. It's 
pretty--it's time to plant. We just had rains across the State, 
and in the next two weeks, farmers will be going out planting 
more acres as fast as they can get them planted. And if it was 
a nonattainment time, the EPA said, you know, you have to 
moderate your planting time, that's what your crop is based on 
is when you plant it, when you're able to apply things to it. 
And so it's just time-sensitive. Every--plants are just time-
sensitive.
    Chairman Bridenstine. So it could in fact delay planting 
and ultimately reduce your yield, which would of course also 
affect the bottom line for the farmer, in addition to all the 
costs that you've already talked about?
    Mr. Reese. Exactly.
    Chairman Bridenstine. Really quickly, could you share with 
us, you mentioned redcedar in your testimony. Share with us 
what you go through with red cedar.
    Mr. Reese. Well, red cedar is a nuisance. It's a public--
it's a plant that we are trying to reduce. It's an invasive 
species. And the best way to maintain it and the most cost-
effective and efficient way by virtually any environmental 
group will agree is to burn. And so we cut them and we burn 
them. And we need to prescribe burn to maintain that. And it is 
a heavy pollen sensitive plant--tree and it causes health 
concerns. And so you have to measure that, are you going to 
allow prescribed burns to take care of the health concern or 
are you not?
    Chairman Bridenstine. So from a--I guess from an allergy 
perspective or and asthma perspective, and of course as 
Commissioner Hiett talked about, that prescribed burns are 
necessary for safety, and it also reduces wildfires, that 
ultimately would create even more ozone concerns. So thank you 
for that testimony.
    Commissioner Hiett, I've got about a minute left. Could you 
share with impacts these proposed rules would have on economic 
development, including transportation and other infrastructure 
projects in Oklahoma?
    Mr. Hiett. One of the greatest challenges we have in 
economic development in the State of Oklahoma is the rural 
area. Our urban areas tend to have more jobs. Our rural areas 
struggle to have jobs. If you look at the areas that are the 
best opportunities for jobs in rural areas, it's going to be 
manufacturing, oil and gas, transportation, three industries 
that will be targeted, will be damaged by the proposed rules. 
So you can see the issue that's there.
    Also, on the transportation side, and it was mentioned 
earlier, a nonattainment stops the Federal projects. Well, 
those of us in agriculture know if we can't get our product to 
market, it has a diminished value, if any value at all.
    Chairman Bridenstine. Thank you for that testimony.
    I will now recognize the gentleman from Arkansas, Mr. 
Westerman, for five minutes of questions.
    Mr. Westerman. Thank you, Mr. Chairman.
    In his testimony during last month's hearing, Dr. Allen 
Lefohn presented modeling results that indicated that if 
emissions were reduced across the United States to achieve 
alternative lower ozone standards, that there would be a 
tendency for the fourth-highest 8-hour concentration to occur 
not just during the summer but also in some locations during 
the spring when the main contributors to ozone are background 
or natural-occurring sources.
    The locations affected by the springtime shift can appear 
anywhere across the United States. He also noted that with more 
stringent proposed standards, background would become an even 
more important contributor to exceedances of the standard. We 
all know that models have limitations but we also know that 
some models are better than others. The modeling results that 
Dr. Lefohn described appear to be supported by EPA's own recent 
analysis.
    I would like to enter into the record a memo dated November 
19, 2014, from Ms. Joann Rice of the EPA. In her memo, Ms. Rice 
indicates that EPA is proposing that the ozone season be 
extended from its current period to longer periods of time. The 
result of EPA's analysis was a total--was that a total of 39 
States across the United States experienced exceedances of the 
60 parts per million level during the spring. Background ground 
ozone is highest during the spring.
    As indicated earlier, ozone formation during the spring 
from manmade sources is much less than during the summer. It 
appears that naturally occurring ozone is a national issue, not 
just limited to Yellowstone and to the Intermountain West. The 
difficulties dealing with background ozone as experienced in 
these States is only a precursor for the entire Nation.
    As a forester and an engineer and after hearing much 
testimony in this and other committees, it appears to me that 
we've become so regulatory aggressive that we not only are 
regulating humans but we're now attempting to regulate nature 
itself.
    Mr. Abernathy and Ms. Keslar and Mr. Reese, my question for 
you is it time that Congress should revisit and modernize the 
Clean Air Act?
    Mr. Reese. I will say yes. We talk about--at least my 
perception is the--the Secretary is a--the Administrator is 
supposed to use criteria requisite to protect public health. 
And so what does that mean? You have public health issues on 
all sides of the issue, the redcedar issue versus asthma versus 
other lung disease, and so I think that--and food and the need 
to eat nutritious, economically produced food. So I think there 
are a number of factors that need to be considered in addition 
to define public health.
    Mr. Abernathy. Mr. Westerman, the resounding answer is 
absolutely. When you come from a State like--especially in 
California and the Central Valley, we've implemented virtually 
as many rules as we possibly can even though we still have a 
no-stone-left-unturned mentality. When you're approaching those 
background levels, the ability to get significant reductions 
through the--through a rule process becomes extraordinarily 
difficult if not impossible, and I think the best way to answer 
your question--and this has actually been proposed in 
California--that we have no farm days.
    Ms. Keslar. I would also agree with the other two members 
of the panel that it's absolutely time to revisit the Clean Air 
Act. From my perspective and the implementation perspective is 
that the Clean Air Act is very vague and it's left up to EPA to 
interpret the Clean Air Act, and then States are left to deal 
with the consequences of EPA interpretations of the Clean Air 
Act. So--especially with respect to background, international 
transport, rural transport areas, and the exceptional event 
rule are very vague in the Clean Air Act and there's not a good 
precedent for implementing those with the current EPA rules.
    Mr. Westerman. And if you will hold those thoughts, I'll 
yield back to the Chairman because I believe we need to go 
vote.
    Chairman Bridenstine. We have a vote on the Floor that 
we've got to get to, but what we'll do is we'll just recess and 
immediately following--we've got one vote. Immediately 
following the vote, we'll come back here and convene, and if 
you'd like to have two and a half minutes of the rest of your 
time, we'll do that. Is that all right?
    Okay. Well, we are now in recess until after the vote.
    [Recess.]
    Chairman Bridenstine. All right. We are back from recess 
and we will reconvene.
    We were in the middle of my good friend from Arkansas, Mr. 
Westerman, asking five minutes of questions, and on the clock 
we had two and a half minutes when we departed, so we will 
resume with Mr. Westerman for two and a half minutes.
    Mr. Westerman. Thank you, Mr. Chairman. I believe Mr. 
Abernathy was in the middle of a thought when we recessed, so 
if you would like to pick up with that answer.
    Mr. Abernathy. Thank you, sir.
    It would be remiss for me not to include that in my written 
testimony there was a series of potential modifications to the 
implementation of the Clean Air Act that I think would be a 
wonderful starting point for the committee to discuss moving 
forward. And also on your question of how it affects 
agriculture, Rule 4570 that I referenced in my oral in my 
written testimony has had an economic burden to individual 
producers in California to the tune of about $50,000 in cost 
just to implement on an annual basis for Rule 4570. So that 
certainly takes away from spending money on potentially more 
important things from a dairymen's perspective when you're 
looking at those kind of costs ongoing on an annual basis, 
especially for small farmers.
    Mr. Westerman. All right. So are there ambiguities and 
issues with the ozone NAAQS that the judicial and executive 
branch cannot properly deal with because the Clean Air Act 
hasn't been modernized?
    Are there any ambiguities or issues that--with ozone NAAQS 
that the judicial and executive branch can't properly deal with 
because the Clean Air Act hasn't been modernized?
    Mr. Abernathy. I'll take a stab at it. We--I think this 
really lends to a unique opportunity for Congress to dive into 
this from the standpoint that in California, as I mentioned 
with a mature regulatory program, way all too often we're 
having our futures decided in a courtroom with a judge. And 
I'll let you think about that for a little bit because that's 
really--that has nothing to do to benefit public health or air 
quality when you're in a courtroom and a judge is making those 
decisions based on a very stringent look at simply the law.
    Mr. Westerman. And, Mr. Chairman, with that I'll yield 
back.
    Chairman Bridenstine. I'd like to thank my friend from 
Arkansas.
    I'd like to recognize my good friend, Ms. Bonamici from 
Oregon, for five minutes of questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you again to your--to the witnesses for their testimony.
    I want to follow up on the line of questioning and also Ms. 
Keslar's testimony. Mr. Chairman, I think it would be very 
useful for us to have the EPA come in and inform us about 
things like the exceptional event rule. I appreciate your 
testimony, Ms. Keslar, about what it takes to comply with that. 
It would be helpful for us to hear from the EPA about their 
efforts and what can be done to make it easier for 
jurisdictions to comply with that rule. That would be very 
useful for us.
    But Dr. Miller, the EPA and others have estimated the 
benefits achieved by lowering the ozone standard, and you 
talked about that in your testimony. Specifically, under the 
proposed standard of 65 to 70 parts per billion, the EPA 
estimates that it would generate an estimated $19-$38 billion 
worth of benefits, and that includes a range of components from 
the number of premature deaths avoided to the number of 
children's asthma attacks that can be prevented. Can you please 
describe some of the other benefits that could come from and 
ozone standard in the range of 70 to 65 parts per billion?
    Dr. Miller. Yes, thank you. What I would like to start with 
is in the context of the need to modernize the Clean Air Act, I 
would flip it and I would say maybe it's time to recognize that 
the Clean Air Act has modernized America. And this is seen 
through its technology-forcing nature and the innovation that 
has resulted from in the past setting what was at that time 
viewed as stringent and unachievable ozone standards, yet we 
achieved them. Right now, in the Northeast we're largely 
achieving the current standard outside of New York City. We 
have achieved that. I'm hoping we can maintain that, but we 
have achieved that already. And that was viewed at one time as 
impossible.
    Ms. Bonamici. And, Dr. Miller, can you talk just a little 
bit about--I know you talked about where your organization--
your area. Can you talk about how much of that is urban and how 
much of it is rural?
    Dr. Miller. We also suffer from transport. Now, the largest 
portion of our pollution load is urban. It is from 
transportation and urban sources. But on top of that, we get a 
pollution load from the West. There are large sources to the 
West. We've actually successfully addressed to some extent 
power plant pollution that comes across on the westerly winds. 
So we have a mix, and so we're sympathetic to Western issues, 
to transport from Asia. We don't get that kind of transport 
from Asia.
    We have our own kind of transport, and it is controllable 
not by our States but through Federal measures that create 
regional programs that have been done in the past such as a NOX 
SIP Call that have been very effective and resulted in deep 
reductions of ozone not just in the urban areas but across 
these broad regional and rural areas that are under discussion 
today.
    Ms. Bonamici. Terrific. And I know that some of the 
benefits associated with improving the ecosystem are hard to 
quantify, and it's likely that there's some benefits that don't 
reflect in the full range of outcomes. Can you describe some of 
the ecosystem services and their value to the economy, for 
example, water regulation?
    Dr. Miller. Right. So the same kind of emissions, 
specifically nitrogen oxides that contribute to ozone formation 
also contribute to acid rain, nitric acid. Nitric acid has 
ecological impacts in terms of forest health. It frees up 
aluminum ions in forest soils. Aluminum ions are toxic to 
aquatic life so it ends up in streams and rivers, kills fish. 
That has a detrimental impact on, say, sportsmen who like to 
catch fish.
    It has--nitrogen deposition in water has a fertilizing 
effect. It creates algal blooms. Those blooms suffocate aquatic 
life. Fisheries have large economic benefits, large economic 
value, and that kind of impact diminishes those as well.
    Ms. Bonamici. And thank you. We've heard a lot about some 
of the costs and technical challenges, and you talked about 
this a bit. The EPA does not allow consideration of those 
factors when setting a standard, but can you comment on the 
importance of separating the costs associated with attaining or 
implementing the ozone standard from the assessment of what 
level is appropriate to protect public health? And I know you 
mentioned the incentives to develop new technology that come 
from such regulation.
    Dr. Miller. First, I'd like to just clarify. It's not EPA 
that doesn't allow consideration of cost in the setting the 
standard. Those are science-based standards based on health and 
protecting public welfare. It's--the Clean Air Act is created 
by Congress and is interpreted unanimously by the Supreme 
Court--
    Ms. Bonamici. Right.
    Dr. Miller. --that requires standards to reflect science.
    Ms. Bonamici. Understood. Thank you.
    Dr. Miller. The implementation part is where costs come in. 
We've been very successful in that and that's where the 
innovation comes.
    Ms. Bonamici. Terrific, thank you. And I just wanted to 
mention that this committee did pass in the last Congress a 
bill to do more research about the harmful algal blooms that 
you mentioned, and I was proud to work on that with my 
colleague from Florida, Mr. Posey.
    And I'm out of time and I yield back. Thank you, Mr. 
Chairman.
    Chairman Bridenstine. I'd like to thank the gentlelady from 
Oregon, Ms. Bonamici.
    Without objection, I'd like to enter into a second round of 
questions. I'll recognize myself for five minutes. And if it's 
all right, you're willing to stick around for another five 
minutes?
    So there's a couple of things I'd like to bring out. I 
think all of us recognize that in urban areas there's a higher 
incidence of surface ozone than in rural areas, not always the 
case but in many cases that's the case.
    I would like to submit for the record a study from Johns 
Hopkins University, and what they attempted to do is they 
sought--according to them, the objective, ``we sought to 
estimate the prevalence of current asthma in U.S. children 
living in inner-city and non-inner-city areas and to examine 
whether urban resident, poverty, or race/ethnicity are the main 
drivers of asthma disparities.''
    What they found is that there was no statistically 
significant difference once you control for poverty, once you 
control for race and ethnicity, the incidence of asthma in 
areas that have higher surface ozone are not greater than the 
incidents that don't have as high ground level ozone.
    So I'd like to introduce for the record the scientific 
study from Johns Hopkins University.
    [The appears in Appendix II]
    Chairman Bridenstine. I'd also like to--actually, we now 
have back one of our Members here. I will retain my remaining 
three minutes and fifty seconds. And is it possible to yield at 
this time to the gentleman from Texas, Mr. Weber?
    Mr. Weber. Yes, sir, it is. Thank you, Mr. Chairman.
    Chairman Bridenstine. You're recognized for five minutes.
    Mr. Weber. I'm not sure five minutes is enough. Can I have 
your other three minutes?
    Chairman Bridenstine. Negative.
    Mr. Weber. Mr. Hiett--is it Hiett? Is that how you that? 
Commissioner Hiett?
    Mr. Hiett. Yes, sir, Hiett.
    Mr. Weber. Okay. You said on March 6, 2015, the SIP, state 
implementation plan, was approved for Oklahoma or finalized I 
think you said. How long did that process take?
    Mr. Hiett. I'm sorry, that was the requirement.
    Mr. Weber. Was that the requirements?
    Mr. Hiett. That was the requirements that were issued on 
March 6----
    Mr. Weber. Okay.
    Mr. Hiett. --of 2015.
    Mr. Weber. Can you describe the length of that process?
    Mr. Hiett. It began in 2008 is my understanding.
    Mr. Weber. So that's seven years----
    Mr. Hiett. Yes.
    Mr. Weber. --give or take? When were--and I'll ask this 
question of Dr. Miller. When were the last EPA--ozone regs 
changed or recommended to be changed? Was it six years ago, ten 
years ago?
    Dr. Miller. Regs, you mean standards?
    Mr. Weber. Standards, yeah, National Air Indoor Quality----
    Dr. Miller. The last time the ozone standards were revised 
was 2008.
    Mr. Weber. 2008, so that's seven years ago. Okay. And if I 
understand your testimony, Commissioner, earlier, prescribed 
burning actually would help in your area in Oklahoma?
    Mr. Hiett. Absolutely. There's a public safety factor----
    Mr. Weber. Okay.
    Mr. Hiett. --there's a health factor, there's--and of 
course the agricultural and economic factors.
    Mr. Weber. Sure, but your testimony here today is that 
proposed--I call them regs--would actually prevent that it 
would actually endanger lives, property, and commerce?
    Mr. Hiett. And in addition to that would--yes, that is 
correct, and in addition to that would require that agriculture 
producers use more chemical to fight--to battle these invasive 
species----
    Mr. Weber. Sure.
    Mr. Hiett. --where now they can do it with fire.
    Mr. Weber. Sure, absolutely.
    Mr. Hiett. With prescribed burning.
    Mr. Weber. So thank you. Dr. Miller, you testified earlier 
right before we went to votes, when Congress set up the Clean 
Air Act, they were very specific that they don't take the cost 
into account. Do I recall correctly you said something to that 
effect?
    Dr. Miller. Yes, it's setting standards. They are health-
based, based on science. Costs come into implementing the 
standards.
    Mr. Weber. Okay. Do you think that that might have been 
shortsighted on their part? Is there any possibility, on 
Congress' part? Not that we would ever be shortsighted.
    Dr. Miller. Actually, I think was very farsighted. And as 
I've mentioned several times, I think that's forced areas to 
innovate, industry to innovate in areas that they weren't going 
to do, and that's----
    Mr. Weber. So it's not like Congress couldn't have been 
wrong or the Supreme Court could never be wrong? The Supreme 
Court has never reversed itself. Or is that----
    Dr. Miller. It does all the time.
    Mr. Weber. They do all the time. Congress I would submit 
probably does need to as well.
    Mr. Abernathy, the EPA's cost-benefit analysis for the 
ozone proposal caps, the cost of unknown controls, I'm from 
Texas, Gulf Coast, a lot of chemical plants, refineries there 
on the Gulf Coast. Texas produces 60 percent of the Nation's 
jet fuel in my district, and I think maybe again it was Dr. 
Miller said that this was the most expensive regulation--going 
to be--one of you said that and we've heard that over and over 
again. But my question is more specific.
    So industry--I own an air-conditioning company. Industry 
will do what's very pretty to and very competitive to be able 
to get that competitive edge for the most part. Mr. Abernathy, 
I think the controls--they're saying in the proposal that the 
caps have cost of unknown controls that don't even exist are 
assumed to be around $15,000. Have you seen that figure?
    Mr. Abernathy. Yes, sir.
    Mr. Weber. Does that sound reasonable to you?
    Mr. Abernathy. No.
    Mr. Weber. I've been in these chemical plants and 
refineries and I can tell you--and in the Texas Legislature I 
was on the Environmental Reg Committee. I can tell you without 
a shadow of a doubt that's nowhere near close to the cost. So, 
you know, when they say it's assumed to be that kind of a low, 
I think that's pie-in-the-sky or dare I say ozone-in-the-sky.
    Mr. Abernathy, one other question. What happens to 
permitting for the dairy industry throughout the country, 
throughout the country when ozone standards are set basically 
to background levels?
    Mr. Abernathy. Sir, would you like me to answer the first--
end of your first question?
    Mr. Weber. Absolutely. You've got more input on it, you 
bet.
    Mr. Abernathy. Thank you. I actually have the privilege of 
knowing Chairman Shaw and----
    Mr. Weber. TCEQ.
    Mr. Abernathy. Yes, sir, and working with the Dr. Shaw, 
Chairman Shaw with the USDA Air Quality Task Force, and we've 
had the pleasure of going over quite a few of the struggles 
that Texas has had as an extreme nonattainment area. And 
keeping that into consideration, he's bumping up to the same 
virtually impossible task of trying to continue to regulate 
industries that he has really regulated to the point where 
there's nothing left to pick off the tree. So I have firsthand 
knowledge of the commonality that the Central Valley in 
California, along with South Coast and Texas share when it 
comes to setting standards that are right at background levels 
of ozone.
    And with that, on the cost, this is--in California we call 
it a black box. We've had standards that we've had to meet, 
we've had technologies that didn't exist, and we've had a 
timeline that we have to meet.
    Mr. Weber. All within seven years and it's fixing to be 
changed again.
    Mr. Abernathy. Yes, sir. And the interesting part about 
that is when we--when the board--San Joaquin Valley Board 
passes a rule on a business, we have no idea or hopes that 
there will be technology that will get us there. The district 
has had the farsightedness to actually develop one program that 
I've been associated with that's called the Technology 
Advancement Program that actually looks at new and innovative 
processes, whether it's emission controls or so forth to help 
advance.
    But even those certain things--and I'll give you this as an 
example--we had John Deere at one of my members' dairies in 
Fresno County. It was a million-dollar piece of equipment. It 
was the latest, greatest technology that had ever been put into 
a John Deere tractor. During the silage harvest, it burned to 
the ground. So with that, technology does come along and 
innovations do come along, but as every farmer at this table 
knows, it takes a long time to go from conceptual to reality 
where you can depend on that 24 hours a day, 365 days year.
    But answering your question, $15,000 a ton, just as another 
number, when the $61.5 million that Rule 4570 cost Central 
Valley dairy farmers came out to about $6,700 a ton. At the 
same time, NOx was being traded as environmental reduction 
credits/ERCs from businesses that had closed down in the 
Central Valley at a tune of $32,500.
    Mr. Weber. And they still had a way to make money.
    Mr. Abernathy. That's right.
    Mr. Weber. And you--and forgive me, Mr. Chairman, if you'll 
indulge me for one more half-a-minute--and you know that 70 
percent of NOx comes from nonstationary point sources, i.e., 
vehicles.
    Mr. Chairman, I yield back.
    Chairman Bridenstine. Roger that. And thank you for your 
questions.
    And just as a reminder, the record will remain open for two 
weeks for additional comments and written questions if the 
gentleman from Texas would like to submit more written 
questions. I know you definitely needed more than five minutes. 
Yeah, you bet.
    I'm going to yield. I've got three minutes and fifty 
seconds remaining. I'm going to yield two minutes to my friend 
from Oregon, Ms. Bonamici, and then we'll close the hearing at 
that point.
    Ms. Bonamici. Thank you, Mr. Chairman. I don't think I'll 
need two minutes.
    I wanted to add to the record, first, a letter from the 
National Farmers Union, the second-largest general farm 
organization in the United States, in support of the EPA's 
proposed revisions. Particularly, they found compelling the 
effect on crop yields a causal relationship between exposure to 
ozone and ambient air and visual--visible foliar injury affects 
on vegetation, reduced vegetation growth, reduced productivity 
and terrestrial ecosystems, reduced yield, and quality of 
agricultural crops.
    So with that, I'd like to enter that into the record.
    And one more thing, just released today is the American 
Lung Association's 2015 State of the Air Report showing that 
more than four in ten people live in areas with an 
unhealthful--unhealthy level of ozone. According to this 
report, there's more than 17.7 million people in the United 
States who live in counties where the outdoor air failed all 
three of the tests.
    So, Mr. Chairman, I would like to introduce this letter and 
this report into the record.
    Chairman Bridenstine. Without objection, they will be 
introduced into the record.
    [The appears in Appendix II]
    Chairman Bridenstine. I would like to--are you yielding 
back?
    Ms. Bonamici. I yield back.
    Chairman Bridenstine. Okay.
    Ms. Bonamici. Thank you.
    Chairman Bridenstine. I would like to thank the witnesses 
for their valuable testimony. Thank you for sticking around and 
answering questions. I apologize that we had a vote in the 
middle of it. I'd like to thank the Members for their 
questions.
    As a reminder, the record will remain open for two weeks 
for additional comments and written questions from the Members.
    And with that, this hearing is adjourned. Thank you.
    [Whereupon, at 4:15 p.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



Responses by The Hon. Jim Reese

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Ms. Cara Keslar


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Mr. Kevin Abernathy

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by The Honorable Todd Hiett

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record



          Statement submitted by full Committee Ranking Member
                         Eddie Bernice Johnson

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



           Documents submitted by Representative Frank Lucus


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




  Documents submitted by Subcommittee Ranking Minority Member Suzanne 
                                Bonamici


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 [all]
</pre></body></html>
